                      Review of the Department=s
           Requirements Definition & Testing Processes for the
            Loan Origination and Loan Consolidation Systems




                                   FINAL AUDIT REPORT




                                    Audit Control Number 11-70010
                                             March 1999




Our mission is to promote the efficient                             U.S. Department of Education
and effective use of taxpayer dollars                                Office of Inspector General
in support of American education                                    Washington D.C. Field Office
                              NOTICE
 Statements that management practices need improvement, as well as other
conclusions and recommendations in this report, represent the opinions of the
 Office of Inspector General. Determination of corrective action to be taken
 will be made by appropriate Department of Education officials. This report
    may be released to members of the press and general public under the
                        Freedom of Information Act.
Review of the Department=s Requirements
Definition & Testing Processes                                Final Report                                      ACN 11-70010




                                TABLE OF CONTENTS

TABLE OF CONTENTS

EXECUTIVE SUMMARY.............................................................................................................1

INTRODUCTION ..........................................................................................................................6
     Background.........................................................................................................................6
     Objectives, Scope and Methodology ....................................................................................7
     Statement on Management Controls ....................................................................................7


AUDIT RESULTS..........................................................................................................................8
     System Requirements for the Loan Origination and Loan Consolidation Systems
      Were Not Adequately Defined ...........................................................................................8

          System Specifications and Documentation Provided to EDS
          Were Incomplete and Outdated......................................................................................... 12

          Test Scenarios and Test Cases Did Not Ensure That the Loan Origination
          and Loan Consolidation Systems Met the Required Functionality...................................... 14

          Overall Documentation Supporting the Loan Origination
          and Loan Consolidation System Testing Was Poorly Maintained....................................... 17

          System Generated Management Information Reports
          Were Not Reviewed or Tested ......................................................................................... 21

          Loan Origination System Interfaces Were Not Adequately Tested
          Prior to System Implementation........................................................................................ 22

APPENDICES
     Appendix 1- Acronyms
     Appendix 2- Department Reply to Draft Report
     Appendix 3- OIG Response to Department Cover Letter Comments
Review of the Department=s Requirements
Definition & Testing Processes                  Final Report                          ACN 11-70010




                             EXECUTIVE SUMMARY
Requirements definition is one of several phases of the development of a system. It is the articulation
of required functional and data management capabilities at a very detailed level. These requirements
serve as the basis for the detailed system design. The subsequently designed system is then tested to
confirm that it actually meets the defined requirements.

Late in Fiscal Year 1995, the Department awarded a contract to Electronic Data Systems (EDS) to
design and implement a loan origination subsystem that would include both loan origination and loan
consolidation processes. This system had previously been under contract to Computer Data Systems,
Inc. (CDSI). [CDSI has recently been acquired by Affiliated Computer Services, Inc. (ACS). For
clarity in this report, we will continue to refer to the incumbent contractor as CDSI.] The EDS contract
called for an original system start-up date of January 15, 1996. However, EDS did not begin operation
of the loan consolidation system (LCS) or loan origination system (LOS) until September 1996 and
March 1997, respectively.

Because of the difficulties associated with the development and start-up of these systems, the Office of
Inspector General proceeded with plans to audit the processes associated with the Department=s
requirements definition and testing of the EDS developed systems. Specifically, our objectives were to
determine whether the Department adequately defined its system requirements for the EDS LOS/LCS
contract and whether these requirements were adequately tested prior to system start-up. Overall, our
audit work revealed that LOS and LCS requirements were not adequately defined for EDS by the
Department, and the system testing that took place prior to start-up was inadequate. These deficiencies
subsequently contributed to system implementation delays, significant increases in contract costs and
negative publicity to the Department.

The Request for Proposal (RFP) issued by the Department required Athe development or conversion and
operation of a subsystem to originate Federal Direct Student Loans, together with all services, hardware,
software and personnel necessary to operate the subsystem and originate loans effectively.@ The RFP
stated that the software from the current system, operated by CDSI, would be provided to the successful
bidder, for conversion or for use in the development of new software. The RFP also indicated that a
sufficient amount of technical documentation was available and would be provided following contract
award, to facilitate system development. Based upon the information presented, EDS proposed to
convert the LOS and LCS to a new hardware and software environment.

However, some Department officials were aware that the previous loan origination contractor had built
its system using proprietary software. In addition, CDSI had developed the LCS using commercial
copyrighted software that required a significant amount of manual support. Actual available system
specifications and documentation proved to be inaccurate and outdated. Therefore, EDS was unable
to convert the source code from CDSI and was ultimately required to develop the systems from scratch.
Review of the Department=s Requirements
Definition & Testing Processes                 Final Report                         ACN 11-70010



Also, system test cases and scenarios did not provide assurance that processing requirements of the
system would be met. Testing documentation did not provide sufficient evidence that all test procedures
were successfully completed. Furthermore, system generated management information reports were
not tested, parallel processing was not performed, and there was only limited stress testing of the
systems.

We acknowledge the Department=s current efforts to move towards a more Aperformance-based@ or
Aoutcomes-oriented@ approach to system procurement. We support the use of performance-based
contracting that will define Awhat@ the system needs to do as opposed to Ahow@ it needs to do it.
However, functional requirements must still be defined in a manner that will adequately communicate
the intended outcomes of the system. If not fully defined in the Statement of Work (SOW), then the
Department must ensure that functional requirements are clearly communicated and understood by the
selected contractor after award, throughout the development of the system. The results of our audit
work indicate that requirements for the LOS/LCS were not adequately communicated under either
methodology.

Detailed in the body of this report are findings specific to the LOS/LCS implementation. However, we
believe that our recommendations can be used to improve the Department=s systems development and
implementation processes overall. Therefore, on the following page we have included a presentation
of general control weaknesses noted, along with suggestions consisting of ways the Department can
strengthen these processes for use in future system development efforts, to avoid the difficulties and
delays encountered with the LOS/LCS.
Review of the Department=s Requirements
Definition & Testing Processes                             Final Report                                ACN 11-70010




   To improve                    We recommend that the Chief Operating Officer for the Office of
   controls over...              Student Financial Assistance Programs (OSFAP)...

   Definition of system          & Establish procedures and controls to ensure the requirements definition process
   requirements...                 is a collaborative process, with the appropriate functional offices having primary
                                   responsibility for defining and approving business/functional requirements;
                                 & Establish procedures and controls to ensure that PSS has primary responsibility
                                   for ensuring the feasibility of offerors= proposed technical solutions, including their
                                   alignment with Department-wide systems architecture and information technology
                                   (IT) strategic plans; and
                                 & Engage industry consultants, when necessary, to participate in the above noted
                                   processes.


   Providing accurate            & Improve procedures for evaluating contract deliverables, particularly in the area
   and up to date                  of system design documents and specifications, to ensure that documentation is
   system specifications           prepared at a sufficient level of detail and that all required functionality is
   and documentation               documented prior to production implementation, or at least by system transition; and
   to contractors...             & Provide detailed program information from the responsible program office when
                                   contractors are selected for development efforts, to ensure that the contractor has a
                                   solid understanding of the functional requirements necessary to meet the needs of the
                                   Department users.


   Preparation of test           & Ensure that test cases are prepared/reviewed by individuals with strong knowledge
   scenarios and test              of the business functions the application is intended to support;
   cases...                      & Ensure that there is a process in place to tie test cases to system requirements;
                                   and
                                 & Ensure conversion testing includes validation of data accuracy.


   Supporting                    & Establish testing guidelines at a high level for all Office of Student Financial
   documentation for               Assistance Program systems; and
   system testing...             & Establish controls which require the contractor to record error resolutions in an
                                   automated tracking system to be used as a reference tool.


   System production of          & Develop test cases that include validating application generated reports based on
   usable management               test data during Systems Integration Testing (SIT);
   information                   & Ensure that Systems Acceptance Testing (SAT) includes the generation,
   reports...                      validation, and acceptance of management reports by the intended users of the
                                   reports prior to system implementation; and
                                 & Ensure reports are produced during stress testing with production volumes of
                                   data.


   System interface              & Process production volumes of data through all applications during stress testing,
   testing…                        prior to system implementation in the production environment;
                                 & Establish guidelines for certifying applications to exchange data;
                                 & Create a data dictionary for OSFAP which identifies standard data formats and
                                   validation criteria for all Student Financial Aid systems.


                                                                3
Review of the Department=s Requirements
Definition & Testing Processes                   Final Report                           ACN 11-70010




Department's Reply
On February 18, 1999, the Department provided a written response to our draft report. The
Department agreed that improvements can be made in writing requests for proposals and that
documentation and testing can always be improved. The Department also agreed with all of our
recommendations and has stated they are in the process of being or have already been implemented.

However, the Department does not agree that system requirements were inadequately defined and that
supporting documentation for testing was inadequate, although it is agreed that documentation was not
maintained as well as it should have been. In addition, the significance of the report findings at this late
date- four years after the request for proposal- is questioned.

The Department believes the report focuses narrowly on areas involving Department management
and ignores problems with contractor project management. Concern is expressed over the fact that
the draft report does not provide the reader with information on corrective or proactive measures
that the Department undertook to correct problems with its contractor, including the Department’s
acceptance of oversight responsibility when the contractor was unable to process an unexpected
number of loan consolidation requests by students, as well as contract modifications that included
performance measures that ensure improved product quality and services. Concern was expressed
that this final report would not reflect the revisions believed necessary to provide a balanced
assessment of the Department’s LO/LC systems conversion effort.

OIG Response
We have carefully considered the Department’s comments to the report. We acknowledge and
appreciate the Department’s actions on several of our recommendations. Appropriate changes have
been made where necessary, however, this final report remains substantially unchanged from the draft
version.
As we noted in our draft report, our findings are specific to the LOS/LCS implementation. However,
our recommendations are geared towards general controls that need to be improved or implemented for
use in future system development efforts, to avoid the difficulties and delays encountered with the
LOS/LCS. While the Department notes that some of our recommendations have already been
implemented, we are concerned that the responses/actions are specific to this particular contract/system.
The Department must ensure that these recommendations are implemented at an organizational level,
with appropriate management controls and policies and procedures in place to prevent the reoccurrence
of these issues on future system development efforts.

Our audit scope and objectives were clearly stated to focus on the Department’s requirements definition
and testing processes, not the contractor’s. Additional audit efforts are looking at other aspects of this
particular contract and will present information on other contributing factors to problems encountered,
as noted on page 8 of this report. However, while we acknowledge that it was not unreasonable for the
Department to expect certain actions by their contractor, the Department is the system owner and in the
end is ultimately responsible for ensuring the adequacy of its contractors’performance. In this regard,

                                                      4
Review of the Department=s Requirements
Definition & Testing Processes                  Final Report                            ACN 11-70010


the Department has the responsibility to provide the contractor any and all relevant information in its
possession or under its control that is needed to properly develop the system. The Department must
take steps to ensure that its internal controls are sufficient to mitigate problems created by contractors.

We previously included and acknowledged in our draft report actions taken to improve processes
applicable to our audit scope, such as is noted with regard to testing processes/practices under
Findings # 3 & 4. While we acknowledge the Department’s corrective measures cited, they are not
pertinent to the scope of our audit. Our objectives focused solely on the Department’s processes for
defining system requirements and system testing. The measures cited by the Department do not
address actions that would improve upon these processes. Had the Department had adequate
measures in place to define requirements and test the systems, there most likely would not have been
a need for the cited corrective actions subsequent to system implementation. The specific
improvements/measures cited by the Department in their response may be cited through other
applicable audit work currently being performed under Audit Control Number 04-80008: “Review
of the Department’s Post Award Administration of the EDS Contract”.
This report includes, after each finding, a summary of the Department’s comments. We have addressed
areas where we disagree with the comments. A copy of the complete text of the response is contained
in Appendix 2. An OIG response to the Department’s cover letter that accompanied the comments to
the report findings is contained in Appendix 3.




                                                     5
Review of the Department=s Requirements
Definition & Testing Processes                 Final Report                          ACN 11-70010




                                          INTRODUCTION
Background

Under the Direct Loan Program, the Federal Government provides loan capital directly to student and
parent borrowers rather than through private lenders. Participating schools, acting on behalf of the
government, deliver funds directly to eligible student and parent borrowers. The Department contracts
with the private sector to provide origination, servicing and accounting systems and to perform related
services.

The contractor for the Loan Origination Center (LOC) is responsible for Direct Lending activities up
to loan repayment. These activities include promissory note and loan origination processing, estimation
and drawdown, disbursement and loan changes. The LOC also processes requests for Direct
Consolidation Loans. Through consolidation, borrowers may combine various types of federal education
loans, including Direct Loans and loans made through the Federal Family Education Loan (FFEL)
Program. Consolidation may extend a borrower=s repayment period, provide an interest rate break in
some cases, and eliminate dealing with multiple lenders.

The former LOC contractor, Computer Data Systems, Inc (CDSI), [recently acquired by Affiliated
Computer Services, Inc.], had performed all loan origination functions as well as all loan servicing
activities for the Direct Loan program since program inception. In order to separate Direct Loan
functions and to take advantage of the competitive bid process, the Department issued a Request for
Proposal (RFP) for a new LOC contractor. The contract was subsequently awarded to Electronic Data
Systems (EDS) late in Fiscal Year 1995.

The EDS contract called for an original start-up date of January 15, 1996 for the combined loan
origination subsystem, which included both loan origination and loan consolidation processes. This date
was eventually extended to May 1996. After EDS was unable to meet the extended start-up date, the
development effort for each process was split, with separate development schedules established for each.
 The Department continued to use the systems operated by CDSI until EDS was able to implement its
loan consolidation and loan origination systems (LCS/LOS). EDS began operation of the LCS in
September 1996 and the LOS in March 1997.

Because of the difficulties associated with the development and start-up of these systems, the Office of
Inspector General proceeded with plans to audit the processes associated with the Department=s
requirements definition and testing of the EDS developed systems.




Objectives, Scope and Methodology



                                                    6
Review of the Department=s Requirements
Definition & Testing Processes                    Final Report                          ACN 11-70010


The objectives of our audit were to:

          (1) Determine whether the Department adequately defined its system requirements for the EDS
          LOS/LCS contract; and

          (2) Determine whether requirements were adequately tested prior to system start-up.

To accomplish our objectives, we reviewed all test files for Systems Integration Testing (SIT), Systems
Acceptance Testing (SAT), and First Live Batch Testing associated with each system. We assessed the
adequacy of the test case scenarios, test case sign-off sheets and issue resolution process, as well as the
documentation supporting the test results. We interviewed a total of 34 Department, EDS and
Independent Quality Control Unit (IQCU) officials and staff involved with the requirements definition
and/or testing processes for the systems. We also reviewed relevant contract documentation, including
the RFP, EDS Technical Proposal and any modifications and Task Orders associated with the contract.

Our audit covered the period beginning with LOS/LCS RFP development through systems= start-up.
Fieldwork was performed at the EDS Ballston, Virginia office and applicable Department of Education
offices between September 1997 and March 1998. We met with Department officials in August and
September 1998 to discuss the results of our audit. Our audit was performed in accordance with
government auditing standards appropriate to the scope of the review described above.

Statement on Management Controls

As part of our audit, we assessed the management controls applicable to the Department=s systems
requirements definition and testing processes, including policies, procedures and practices applicable
to the scope of the audit. Our assessment was performed to determine the level of control risk for
determining the nature, extent and timing of our substantive tests to accomplish the audit objectives.

For the purpose of this report, we assessed and classified the significant controls into the following
categories:

          ---       system requirements definition;
          ---       system testing

Because of inherent limitations, a study and evaluation made for the limited purposes described above
would not necessarily disclose all material weaknesses in the above areas. However, we identified
weaknesses and recommended improvements for future system development and testing efforts. These
weaknesses are discussed in the Audit Results section of this report.




                                                       7
Review of the Department=s Requirements
Definition & Testing Processes                           Final Report                                 ACN 11-70010




                                          AUDIT RESULTS
The following is a presentation of our findings noted as a result of our audit work, accompanied by
applicable recommendations. Overall, our audit work revealed that LOS/LCS system requirements were
not adequately defined by the Department in the RFP and the system testing that took place prior to
start-up was inadequate. These weaknesses subsequently contributed to a number of problems,
including:

<         delays in implementing the EDS developed systems;

<         significant increases in contract costs to successfully implement the systems;

<         the eventual shutdown of the Loan Consolidation system due to the inability to timely
          and adequately process consolidation requests;

<         Congressional hearings on the deficiencies of the EDS Loan Consolidation system; and

<         the creation of a negative image of the Department=s ability to manage an effective Direct Loan
          Program by the student aid community and borrowers.

[Additional contributing factors to the problems noted above will be addressed through audit work being completed under Audit
Control Number 04-80008: AReview of the Department=s Post-Award Administration of the EDS Contract@]

Detailed in the body of this report are findings specific to the LOS/LCS implementation. However, we
believe that the recommendations presented can be used to improve the Department=s future systems
development and implementation processes overall, and thereby avoid the difficulties and delays
encountered here.


Finding No. 1                  System Requirements for the Loan Origination and Loan
                               Consolidation Systems Were Not Adequately Defined

Loan Origination

The functionality of the LOS, originally developed by CDSI, was not adequately defined in the RFP
issued by the Department. As noted in the Department=s System Life Cycle Management Manual,
requirements definition is one of several phases in the development of a system. It is during this phase
that required data and data processing capabilities are defined in detail, and a detailed data dictionary
capturing the data requirements is created. The requirements definition phase provides the detailed
information needed for the design of the system.
We acknowledge the Department=s awareness that the approach described above is somewhat outdated
and that they are working to update the System Life Cycle Management Manual to reflect a more

                                                              8
Review of the Department=s Requirements
Definition & Testing Processes                  Final Report                            ACN 11-70010


Aperformance-based@ or Aoutcomes-oriented@ approach to system procurement. We support the use of
performance-based contracting that will define Awhat@ the system needs to do as opposed to Ahow@ it
needs to do it. However, functional requirements must still be defined in a manner that will adequately
communicate the intended outcomes of the system. If not fully defined in the SOW, then the
Department must ensure that functional requirements are clearly communicated and understood by the
selected contractor after award, throughout the development of the system. The results of our audit
work indicate that requirements for the LOS/LCS were not adequately communicated under either
methodology.

The RFP stated that the software from the current system, operated by CDSI, would be provided to the
successful bidder, for conversion or for use in the development of new software. The RFP also
indicated that a sufficient amount of technical documentation was available and would be provided
following contract award, to facilitate system development. Based upon the information provided in
the RFP, EDS proposed to >convert= the existing CDSI system to a new hardware and software
environment.

Interviews with Department staff indicate that some key Department officials were aware that the LOS
developed by CDSI interacted with and was dependent upon proprietary software used by CDSI to
support their Direct Loan servicing and accounting (FARS) systems. Because the proprietary routines
used by CDSI to process loan origination data were unavailable to EDS, EDS was unable to Aconvert@
the CDSI program into a fully functional system. Furthermore, the actual available specifications and
documentation for the CDSI system proved to be inaccurate and outdated. [See Finding 2]

Loan Consolidation

In addition to originating student loans, the RFP also required the successful bidder to develop an
automated system to support the business of consolidating student loans. The Loan Consolidation
System would combine existing multiple student loans, held by an individual borrower, into a single loan
for repayment purposes. The functional requirements for loan consolidation were described at a very
high level in the RFP. The CDSI loan consolidation application operated on a stand-alone, PC-based
environment and required a significant amount of manual support. The business requirements for loan
consolidation were never fully documented by either CDSI or the Department. In addition,
requirements were continually changing. Therefore, the Department was unable to clearly define the
required system functionality in the RFP.

Lack of Technical Expertise & User Involvement

The team assembled by the Department to define the required features of the Loan Origination
Subsystem in the Statement of Work (SOW) for the RFP was comprised predominantly of Program
Systems Service (PSS) personnel, primarily individuals new to the Department of Education who did
not have much Direct Loan Program knowledge. In addition, concerns were noted with regard to the
level of technical expertise of the individuals involved. Specifically, one Department official stated that
the Department could not have effectively reviewed and commented on the EDS proposal because they
were unfamiliar with the proposed technology. A number of EDS officials noted that while the
Department representatives had a strong business knowledge, they lacked systems/technical expertise.

                                                     9
Review of the Department=s Requirements
Definition & Testing Processes                    Final Report                           ACN 11-70010




Representatives from one of the key beneficiary/user offices of the Loan Origination and Loan
Consolidation data- the Accounting and Financial Management Services (AFMS)- indicated they were
not adequately involved in the SOW development prior to its release, citing inadequate timeframes
provided for documentation review and the procurement team=s failure to address issues raised by
AFMS in some key functional areas. Lack of adequate involvement by this office in drafting the SOW
failed to ensure that all procedures for interacting with Department systems were thoroughly addressed.
All of the potential users of the application should be involved in all facets of developing the systems=
business requirements before initiating system development efforts. Successfully capturing the business
rules, at a detailed level, should be the responsibility of the organization most knowledgeable of the
rules.


Recommendations

We recommend that the Chief Operating Officer:

1)        Establish procedures and controls to ensure the requirements definition process is a collaborative
          process, with the appropriate functional offices having primary responsibility for defining and
          approving the business/functional requirements;
2)        Establish procedures and controls to ensure that PSS has primary responsibility for ensuring the
          feasibility of the offeror=s proposed technical solutions, and that the proposals are aligned with
          Department-wide systems architecture and information technology (IT) strategic plans; and
3)        Engage industry consultants, when necessary, to assist in the above noted processes.

Department’s Reply

The Department did not agree with this finding, noting that a detailed redefinition of the functional
requirements was not required, as they were already more than adequately defined during their
development at the original contractor, CDSI. It would be neither necessary nor cost efficient to go
through a complete system development life cycle process each time a system is moved. However, the
Department did acknowledge that documentation from CDSI regarding various data anomalies was not
made available, thereby leaving EDS with requirements for processing of which they were unaware.

The Department concurs with the recommendations and is in the process of implementing them. It was
noted that systems consultants have already been engaged during systems development, specifically
during the original Direct Loan program implementation.

OIG Response

We have reviewed the Department’s response and do not feel that the information provided warrants
any revisions to our finding or recommendations, for the reasons noted in the finding as well as the
following. Functional requirements should be defined in sufficient detail to allow a conversion to

                                                      10
Review of the Department=s Requirements
Definition & Testing Processes                  Final Report                            ACN 11-70010


proceed efficiently. Based upon the information presented in the above finding and Finding #2, it is
reasonable to conclude that the absence of detailed requirements compromised that efficiency. A
functional reassessment would have been an appropriate step to take in order to mitigate the risk that
inadequate system documentation on the part of the incumbent contractor would compromise a
migration to the new contractor. This is especially true when system specifications are in any way
changed during actual implementation.

While we agree that it is neither cost efficient or necessary to go through a complete system
development process each time a system is moved, we do not believe it is acceptable to bypass the need
for a comprehensive and systematic review of critical controls based on a significant change to the
operating environment. A move of a complex system from one “host” to another would be expected
to be accompanied by a fairly well-defined effort to identify potential problems.

In addition to the deficiencies contained in the documentation provided to EDS (as noted in Finding #2),
Year 3 software requirements continued to be refined as were the requirements for consolidation. EDS
was also required to work with the Department to define requirements for the In-School Consolidation
process, Origination levels 4 & 5 and interface with the Central Data System.

On March 13, 1996, a meeting was held between the Department and EDS concerning the on-going
changes to the requirements. The Department conceded that many of the requirements had yet to be
defined even though the system was scheduled for delivery in approximately 2 weeks. Therefore, we
believe that system requirements were not adequately defined.

Also, the Department notes in response to one of the recommendations that outside consultants have
been used on a previous procurement. While we are not in disagreement with this particular statement,
no outside consultants were used on the EDS procurement. While some Department officials may have
believed the Department employees assembled to write the SOW and evaluate offeror proposals had the
appropriate knowledge and expertise to negate the need for outside consultants, the results of our
analysis as well as follow-up discussions with some of these officials indicate that this may not have been
the case. The Department must ensure that appropriate controls are in place at an organizational level
so that outside consultants will be used whenever necessary on any system procurement. This issue is
discussed in more detail in an OIG draft audit report recently issued on the Department’s Acquisition
Process for OSFAP Information Systems, ACN 11-80004.




Finding No. 2                  System Specifications and Documentation Provided to EDS Were
                               Incomplete and Outdated

Once the decision was made to allow EDS to proceed with their proposed conversion of CDSI=s system,
it was incumbent upon the Department to ensure that the CDSI system specifications and documentation

                                                    11
Review of the Department=s Requirements
Definition & Testing Processes                 Final Report                          ACN 11-70010


delivered to EDS define the LOS at a level which ensured that all required functionality would be
included in the >converted= application. However, the documentation for the original subsystems was
either in excess of a year old, or did not exist. In many cases, the initial documentation had not been
updated to reflect enhancements made to the system. Upon receipt of the LOS documentation by the
EDS technical team, concerns immediately surfaced regarding the quality and depth of the available
information.

The dynamic nature of the Direct Loan Program during Years 1 & 2, required that CDSI focus on rapid
development and modification to the system, rather than allocating sufficient effort to maintaining the
system documentation. In addition, the Department staff assigned to review the system documentation
appeared to review only for overall reasonableness- not at a detailed technical level. Subsequently, the
available documentation did not contain a sufficient level of detail on which to base a new development
effort.

Year 1 efforts to increase school participation in the program resulted in a focus on
accommodating the processing needs of individual schools rather than ensuring continuity in
handling incoming data.

Our audit disclosed that the Department and CDSI operated in a reactive, rather than a proactive mode,
in defining and implementing the Loan Origination System for processing academic Years 1 and 2.
For Year 1, the CDSI Loan Origination System processed information for 103 schools. This limited
level of participation allowed the Department to define the Direct Loan Program requirements and to
finalize the necessary functionality of the Loan Origination System as the program matured. This
restricted level of participation allowed CDSI to react quickly to technical issues encountered as data
was received from participating schools and to accommodate unique processing requirements for
various schools.

Although responsiveness was critical in terms of establishing school participation in the program, it
resulted in a high level of exception processing by CDSI for individual schools. These exceptions
resulted in an inefficient development effort and a heavy reliance on manual processes to meet program
requirements. The LOS production environment focused on the processing needs of individual schools
rather than establishing policies and procedures that ensured continuity in handling data received from
all of the participating schools.




Proprietary Software Used by CDSI was Unavailable to EDS

As noted previously, CDSI’s LOS application was also interactive with, and dependent upon, proprietary
software used to support their Direct Loan servicing and accounting systems. Because the proprietary
routines used by CDSI to process loan origination data were unavailable to EDS, EDS was unable to
>convert= the CDSI program into a fully functional Loan Origination System. When the government-

                                                   12
Review of the Department=s Requirements
Definition & Testing Processes                     Final Report                            ACN 11-70010


owned programs from the CDSI application were converted, recompiled, and executed by EDS, the
application processing failed. EDS was then required to develop new application modules and
subroutines to replace the proprietary functionality.

The lack of documented functional requirements, as well as EDS=s lack of loan processing industry
knowledge, created a significant burden for EDS in verifying the application conversion as well as
developing the code required to support the functions which had been performed by the CDSI
proprietary code. Additionally, the communication of business requirements was required to be
provided to EDS through PSS, rather than directly from the functional offices. This potentially
increases the risk of misinterpretation and confusion in defining the business rules. While it is
recognized that individuals without contracting authority may not direct the contractor, preventing
direct contractor access to designated key subject matter expert points of contact creates a significant
disservice to effective system development and implementation.


Recommendations

We recommend that the Chief Operating Officer:

1)        Improve procedures for evaluating contract deliverables, particularly in the area of system design
          documents and specifications. The Department should ensure that documentation is prepared
          at a sufficient level of detail and that all required functionality is documented prior to production
          implementation, or at the very least prior to system transition. Final payment under the contract
          should be withheld until satisfactory documentation is completed; and
2)        Ensure that throughout the development process, the responsible program office provides
          detailed program/functional information to new contractors. Development should not be
          initiated without complete confidence that the contractor has a solid understanding of the
          functional requirements necessary to meet the needs of the Department users.

Department’s Reply

The Department agreed that the former contractor’s documentation was in some areas incomplete and
out of date, but believes that EDS should have identified this limitation during its review of the
documentation maintained in the RFP library. EDS should have posed many questions during the RFP
process to clarify its understanding of system requirements.


While there is concurrence with our recommendations, the Department believes that the responsible
program office was already providing program/functional information to EDS throughout the
development process.

OIG Response


                                                       13
Review of the Department=s Requirements
Definition & Testing Processes                  Final Report                          ACN 11-70010


We acknowledge that it was not unreasonable for the Department to expect EDS to have identified
weaknesses in the documentation and pose questions during the RFP process. However, the
Department still had primary responsibility for ensuring that weaknesses were identified and questions
asked- especially in light of the fact that the Department admits its awareness that the documentation
was incomplete and out of date in some areas.

In a letter dated 9/15/95 to the Department, EDS notes the condition of the items provided by CDSI
and the documentation missing, noting the overall impact this would have on systems development.
Some of the missing and/or outdated items included lack of functional requirements for reconciliation
and consolidation; lack of a data dictionary for reconciliation; no proprietary modules for Origination,
Consolidation and Reconciliation; and no updates to Loan Origination and Consolidation documents
for at least 9 months. In a subsequent analysis performed by the Department’s Contract Specialist on
the status of system documentation provided by CDSI, the overall conclusion was that CDSI’s
documentation for the system was substandard and in no facet did it meet the requirements set forth in
the SOW or the contractor’s proposal.

The Department is the system owner and in the end is ultimately responsible for ensuring the adequacy
of its contractors’ performance. In this regard, the Department has the responsibility to provide the
contractor any and all relevant information in its possession or under its control that is needed to
properly develop the system. Our interviews with Department management and program officials
suggest that this did not happen for this procurement, nor has the Department indicated in its response
that a process is in place to ensure this happens in all future procurements. Therefore, our finding and
corresponding recommendations will remain unchanged.



Finding No. 3                  Test Scenarios and Test Cases Did Not Ensure That the Loan
                               Origination and Loan Consolidation Systems Met the Required
                               Functionality

The test scenarios, comprised of a series of test cases and the associated expected results, did not
provide adequate assurance that processing requirements of the LOS and LCS data would be met. As
stated in the Department=s System Life Cycle Management Manual, preliminary test plans are to be
developed during the requirements definition phase. These plans are to include test scenarios the testing
will use to confirm that the system meets the defined requirements. Failure to properly and sufficiently
prepare test cases can contribute to post-production system problems.

Per interviews with EDS, IQCU and Department staff, test documents were developed by the EDS test
team based on limited knowledge of the Loan Origination and Loan Consolidation business
requirements, and reviewed by Department representatives. For the January 1996 Systems Integration
Testing performed by EDS, no scenarios or test cases were created by either EDS or the Department.
EDS was not prepared for this phase of testing. For subsequent Loan Origination and Loan
Consolidation Systems test phases, IQCU and EDS staff noted that test scenarios and test cases were
poorly defined, due to the absence of functional detail contained in the Requirements Traceability Matrix

                                                    14
Review of the Department=s Requirements
Definition & Testing Processes                   Final Report                          ACN 11-70010


(RTM). Required functions were not specifically identified and related to an individual test case for
validation. The condition of the RTM forced the test teams to rely on verbal communication with the
system engineers for clarification of the functional requirements and expected results used to create the
test cases.

In addition, the data that was converted from the CDSI system was not adequately tested. EDS
appeared to have focused on meeting testing milestones rather than the testing of the accuracy of the
converted data. Furthermore, one EDS representative noted that the conversion program was run only
to determine whether it would complete without error, and that no one from the Department reviewed
the converted data for accuracy. It was also noted that the scope and definition of conversion testing
requirements were not well defined in either the RFP or the EDS proposal. Failure to adequately test
the data conversion effort subsequently resulted in processing errors when the LOS was placed into
production.

Based upon limited observation and discussions with key EDS and Department officials, recent testing
efforts appear to have improved. Year 5 testing of the LOS & LCS was noted as being much more
formal- including more organization through the use of an automated database tool for tracking and
monitoring test results, the consistent presentation of test results, and requirements in the RTM are now
being mapped to specific test cases.



Recommendations

We recommend that the Chief Operating Officer:

1)        Ensure that test cases are prepared by individuals with strong knowledge of the business
          functions the application is intended to support. If the contractor is Anew@ to the business,
          require the use of a consultant/subcontractor who is knowledgeable of the business or ensure
          that all test cases are reviewed by knowledgeable Department personnel;

2)        Ensure there is a process in place that ties test cases to system requirements; and

3)        Ensure conversion testing includes validation of data accuracy.



Department’s Reply

The Department agreed that the initial testing effort was seriously flawed, but believes that the
subsequent testing efforts for the September 1996 LC system implementations and the March 1997 LO
system were properly performed. The Department believes that the subsequent LO and LC testing
provided assurance that the processing requirements, as defined, were successfully met. In mid-1996,
EDS began adding personnel who possessed significant education lending industry experience that were
assigned to the requirements, development and testing groups.

                                                     15
Review of the Department=s Requirements
Definition & Testing Processes                  Final Report                            ACN 11-70010




The Department also notes that while there were significant problems with the data converted from the
original loan origination database, there were significant conversion activities that were successful. Most
of the data was converted successfully, evidenced by the fact that once production began, a majority of
the data processed correctly on a daily basis. Many of the processing problems that occurred following
implementation related to data anomalies inherited from the former contractor. Active intervention by
the Department and EDS identified the cause(s) of problems when they occurred. Subsequent changes
made to vendor and school-based software allowed data related problems to be reduced to a very small
percentage of the data transmitted daily.

The Department agrees with our recommendations, noting that two of them, pertaining to the
preparation of test cases by individuals with strong knowledge of the business functions the application
is intended to support and assurance that a process is in place to tie test cases to systems requirements,
have already been implemented.

OIG Response

We acknowledge that improvements have been made in later testing efforts and had previously noted
them in our draft report. However, we have reviewed the Department’s response and do not believe
any revisions are necessary to our finding or recommendations. In addition to the information provided
in the above finding, conversion of data was continuously noted as one of the biggest challenges in
implementing the LO system by both EDS and Department management and staff. The reconciliation
module experienced difficulties for over 2 months after the system was implemented due to significant
data conversion problems.

While the Department notes that two of our recommendations have already been implemented, we are
concerned that, with the exception of recommendation #3, the responses/actions are specific to this
particular contract/system. The Department must ensure that these recommendations are implemented
at an organizational level, with appropriate management controls and policies and procedures in place
to prevent the reoccurrence of these issues on future system development efforts.




Finding No. 4                  Overall Documentation Supporting the Loan Origination and
                               Loan Consolidation System Testing Was Poorly Maintained

Our review of the supporting documentation for the testing of LOS and LCS for Years 2/3/4 disclosed
that the documentation was incomplete and did not provide sufficient support that all test procedures
were successfully completed. The overall quality of the supporting documentation for the SIT and SAT
testing of the Loan Origination and Loan Consolidation Systems was poor. The following table presents
the percentage of test cases for which documentation was missing, at each level of testing reviewed.

                                                    16
Review of the Department=s Requirements
Definition & Testing Processes                          Final Report                        ACN 11-70010


[“Dashes” (---) indicate that 100% of the documentation was available- nothing was missing.]


                                    LO SIT          LO SIT             LO SAT     LC SIT          LC First
                                    Yrs 2/3         Yrs 2/3/4                                    Live Batch

 missing test                             27%            13%                ---       15%                  37%
 scenarios

 missing support for                          ---         8%               33%        32%                  55%
 test results

 missing evidence                         35%            14%                7%             ---              ---
 of resolution for
 noted testing
 errors

 missing sign-off                             ---        15%                ---            ---              ---
 sheets

 missing signatures                    ED-9%               ---              ---     ED-39%                  ---
 on sign-off sheets                  EDS-11%                                       EDS-65%
                                    IQCU-19%                                      IQCU-38%

Per interviews with IQCU, EDS and Department representatives, it appears that no formal written
policies and procedures for reviewing the results of individual test cases were established prior to
initiating, or during, testing of the LOS and LCS. No central point of control was established for
ensuring that the test case folders contained the required documentation, approval signatures, and
support for error resolutions prior to retiring the test case. This condition resulted in a failure to
consistently document issues and resolutions for future reference by EDS or the Department,
eliminating the ability to identify recurring errors.




The deficiencies noted above also impacted the effectiveness of an EDS developed Central Tracking
System (CTS) database. Errors identified during LOS and LCS testing were documented by EDS
on a Central Tracking System (CTS) sheet and assigned a unique tracking number. The information
from the CTS sheet was entered into the CTS database for tracking purposes. Although the CTS is
no longer used by EDS, we were provided an electronic copy of the retired CTS application and its
associated database to analyze during our audit. Our evaluation of the CTS database identified
errors and issues which remained unresolved at the conclusion of the LOS and LCS testing. There
was no evidence that unresolved CTS records were migrated to the Direct Loan System
Modification Request (DMR) database at the time the Central Tracking System was retired.
Additionally, the CTS database contained a high percentage of records with a status of closed.


                                                            17
Review of the Department=s Requirements
Definition & Testing Processes                   Final Report                          ACN 11-70010


However, these closed records did not contain a description of how the error was resolved or
identify the individual responsible for approving the resolution.

As previously noted, based upon limited observation and discussions with key EDS and Department
officials, recent testing efforts appear to have improved. Year 5 testing of the LOS & LCS was
noted as being much more formal- including more organization through the use of an automated
database tool for tracking and monitoring test results, the consistent presentation of test cases, and
requirements in the RTM are now being mapped to specific test cases.



Recommendations

We recommend that the Chief Operating Officer:

1)        Establish testing guidelines to be used for all Department systems;
2)        Implement controls to ensure that once agreed upon, test procedures are strictly adhered to by
          contractor and Department staff;
3)        Monitor the status of each test case and any errors identified during testing; and
4)        Establish controls which require the contractor to record error resolutions in an automated
          tracking system to be used as a reference tool.

Department’s Reply

The Department believes the supporting documentation used to manage and report the acceptance
testing process for Years 2, 3 and 4 testing was adequate. The Department’s opinion is that the
OIG did not expend sufficient audit resources to obtain the testing documentation reported as
missing. Included with the response are the results of the Department’s own review of the testing
documentation in comparison with the testing documentation reported missing by the OIG, noting
that in most instances the number of documents identified by the OIG as missing was either inflated
or erroneous.


The Department concurred with all of our recommendations and noted that they are in the process
of being implemented.

OIG Response

We strongly disagree with the Department’s statement that we did not expend sufficient audit
resources to obtain the testing documentation reported missing. We believe that we exercised due
professional care in performing the documentation review and in evaluating and reporting the
subsequent results, as follows. All testing documentation was initially requested from the
appropriate Department management official, who referred us to EDS’s Ballston, VA facility, where

                                                     18
Review of the Department=s Requirements
Definition & Testing Processes                 Final Report                          ACN 11-70010


the documentation was kept. Upon starting fieldwork at the Ballston facility in September 1997, we
were assigned an EDS contact person and Departmental contact person for needed
documentation/information, who were both provided with a copy of our documentation request.

Testing documentation was subsequently obtained in November 1997 from EDS’s testing manager
for the Loan Origination/Loan Consolidation system. After our review of 100% of the
documentation provided, it was apparent that the documentation provided was incomplete. We
conveyed this information to the testing manager and subsequently to the EDS Project Manager in a
meeting in January 1998. We also spoke to the Department’s on-site monitor, our Departmental
contact, in January 1998, about the testing documentation.

Between January and March 1998, we asked several interviewees from ED, EDS and the IQCU
about the testing process and how testing documentation was organized. It was consistently stated
that test data was kept organized in folders, which included not only test case scenarios but also
additional documentation such as the resulting outputs and tracking sheets that would show the
status of any open testing issues. It was also noted that all test teams worked from a single sign-off
sheet and that these were placed in the test folder.

Upon completion of our site work at EDS’s Ballston facility and subsequent completion of our
preliminary analysis of our results, we conducted a pre-exit conference meeting with Department
officials, where we presented the preliminary results of our review, providing another opportunity
for information to be presented that would lead us to believe that our facts were misrepresentative
before placing them into a draft report. While there was some initial surprise over the missing
documentation, it was only requested that we include the percentages of missing information in our
report, as there was thought that the initial testing effort would probably prove to be more
problematic than subsequent efforts.

In addition, it appears that the Department has mistaken some of the information presented in our
report. The “dashes” used in the table noting the percentages of documentation missing were meant
to indicate that 100% of the documentation was found- none was missing. It appears it was misread
as meaning none or 0% of the documentation was found. This misunderstanding significantly
impacts the results of the Department’s analysis. Additional comments from the Department’s
analysis do not materially affect the outcome of this finding. In several places it is cited that
documentation was available elsewhere and it is noted that it may be difficult to locate without
assistance as it was not kept in the test folders. We made repeated requests for the documentation
we were missing, as noted previously. Not once did anyone allude to the missing documentation
being anywhere else other than the test folders maintained by the testing manager. In addition, the
majority of the documentation was kept in the test folders in these instances. It seems unreasonable
to believe that a small percentage would have been kept separately.

We performed some additional follow-up work with regard to the Department’s analysis and spoke
with the testing manager from EDS who actually prepared the analysis. Our conversations with her
revealed that there was no review performed that adequately identified the specific documentation
we reported as missing. In some instances, percentages of the various types of information that was


                                                   19
Review of the Department=s Requirements
Definition & Testing Processes                   Final Report                             ACN 11-70010


missing, per our review, were compared with what was found after reviewing the test files on hand.
[i.e.- For test scenarios, if the files on hand showed that each file had a test scenario in it, this was
considered to mean that 100% of the documentation was available. There was no confirmation that
all test files were accounted for or if test scenarios were in fact the correct test scenario for that file.]
 In some cases, random samples were taken, as the testing manager noted that it was not possible for
a 100% review to be performed on what we reported as missing. In support of some of the missing
documentation, copies of summary test reports were referred to with the conclusion that the
Department and IQCU signed-off on them, indicating that all errors must therefore have been
corrected. EDS has noted in a written response to the Department provided along with their
analysis that supporting documentation for pre-implementation testing of the LOS and LCS was not
fully in order, but that measures have since been taken for post-implementation testing efforts to
insure that test documentation is preserved long term.

We were also informed that no Department representatives reviewed the analysis prepared by EDS
for adequacy or accuracy, and that all hardcopy documentation from the test phases we reviewed
had been boxed up and archived in a storage warehouse back in December 1998.

While the Department concurs with our recommendations, we remain concerned once again that some
of the responses/actions are specific to this particular contract/system. The Department must ensure
that these recommendations are implemented at an organizational level, with appropriate management
controls and policies and procedures in place to prevent the reoccurrence of this issue on future system
development efforts.

Our finding will remain as stated, however we have modified the title to present the issue more
clearly. We have also added an explanation to the table with regard to what the “dashes” represent.




Finding No. 5                  System Generated Management Information Reports Were
                               Not Reviewed or Tested

During our review, we identified no test cases for validating management reports generated by the
LOS and LCS. The RFP issued by the Department required EDS to test the adequacy and accuracy
of the production and format of system outputs, including reports, during Systems Integration
Testing. Testing was defined to include the presentation of data, accuracy of the data, and
completeness of the data reflected on the reports. EDS, in its proposal, stated that it would be able
to provide all management reports currently available to the Department. However, EDS did not


                                                     20
Review of the Department=s Requirements
Definition & Testing Processes                    Final Report                           ACN 11-70010


appear to have tested the reports and was unable to provide management reports after the LOS was
placed into production.

Our audit disclosed examples of application generated management reports included in some of the
test case folders. These reports were determined by the OIG auditors to be incomplete, inaccurate,
and unusable by the Department in managing the Direct Loan Program. The reports contained errors
ranging from incorrect totals to reflecting records dated outside of the user specified date
parameters. Errors contained in the reports were not documented or noted in any of the test case
folders by the test team. The test team appeared to have focused not on the quality or accuracy of
the reports, but on whether the print routine completed without error.

Incomplete testing of the management reports subsequently limited the usefulness of the application
to its intended users. Limited management reports were available to the program offices when the
application was placed into production, and the reports that were available were of questionable
integrity. The lack of useful management reports hindered the Department=s ability to monitor the
Direct Loan program.



Recommendations

We recommend that the Chief Operating Officer:

1)        Develop test cases that include validating application generated reports based on test data during
          SIT;


2)        Ensure that SAT includes the generation, validation, and acceptance of management reports by
          the intended users of the reports prior to system implementation; and

3)        Ensure reports are produced during testing with production volumes of data.



Department’s Reply

The Department concurs with the finding, noting that during implementation MIS report testing was
minimal and no contract deliverables were required. The Department also noted concurrence with the
accompanying recommendations, stating that they have already been implemented or are in the process
of being implemented.

OIG Response

While we appreciate the Department’s quick action on several of these recommendations, we remain


                                                      21
Review of the Department=s Requirements
Definition & Testing Processes                  Final Report                          ACN 11-70010


concerned once again that the responses/actions are specific to this particular contract/system. The
Department must ensure that these recommendations are implemented at an organizational level, with
appropriate management controls and policies and procedures in place to prevent the reoccurrence of
this issue on future system development efforts.



Finding No. 6                  Loan Origination System Interfaces Were Not Adequately
                               Tested Prior to System Implementation

Our review disclosed weaknesses in testing the required interfaces to the Loan Origination System.
The LOS electronically exchanges data with several Department of Education systems. For example,
financial accounting transaction data is transmitted to, and received from, the Central Data System on
a daily basis. The interface with the Title IV WAN allows the LOS to retrieve from, and send
information to, participating schools. The ability to interface with these systems was critical to the
successful testing and implementation of the LOS. However, these interfaces were not sufficiently
tested before implementing the LOS.

The EDS proposal states that AEDS will establish external interfaces and test them early in the
conversion process to ensure that they support LOS testing.@ The proposal also identifies parallel
testing as a major activity in the Department’s System Life Cycle Management Manual and called for
a System Certification Review to ensure that the system was ready for production release. When EDS
requested authorization to perform parallel processing as called for in the proposal, the Department did
not authorize this phase of testing. Department representatives we interviewed stated that the volume
of production data received from the schools, in conjunction with differences in processing environments
between CDSI and EDS was prohibitive to parallel testing. Other factors noted for eliminating this test
phase included pressure to implement the EDS systems and funding limitations.




EDS was able to complete limited stress testing at the conclusion of System Acceptance Testing. Stress
testing was based on EDS created data. However, when production processing was initiated, it became
evident the test data was not representative of the production environment, due to the fact that, a
significant number of data errors occurred during production when EDS processed incoming files from
the schools, particularly with schools operating on mainframe platforms. Inadequate testing also
contributed to jeopardizing the participating schools= satisfaction with the new Loan Origination System.



Recommendations


                                                    22
Review of the Department=s Requirements
Definition & Testing Processes                    Final Report                          ACN 11-70010


We recommend that the Chief Operating Officer:

1)        Process production volumes of data through all applications prior to implementation of the
          system in the production environment;

2)        Establish guidelines for certifying applications to exchange data;

3)        Create a data dictionary for the Office of Student Financial Assistance Programs which identifies
          standard data formats and validation criteria for all Student Financial Aid (SFA) systems.

Department’s Reply

The Department noted that the LOS was subjected to two interface test periods with EDExpress (the
Departrment’s school-based software), Title IV Wide Area Network, the Central Database and Payment
Management System. LCS compatibility was tested with the Central Database, Compass Bank and the
print center. Earlier testing insured that the communication protocols were fully functional between
EDS and its trading partners. Later efforts, subsequent to systems acceptance testing enabled them to
identify differences in key data fields.

The Department concurs with all of our recommendations and notes they are in the process of being
implemented.

OIG Response

We agree that there was some interface testing performed. However, as the finding notes, key tests
were either insufficient or not performed at all, as detailed in the finding. One key Department
management official noted that this was a lesson learned and that parallel processing and stress testing
would now be included in all test schedules. Our finding will therefore remain as originally presented.




                                                                                        Appendix 1

                                             ACRONYMS


 CDS                   Central Database System

 CDSI                  Computer Data Systems, Incorporated

 CTS                   Central Tracking System

 DMR                   Direct Loan System Modification Request
                                                      23
Review of the Department=s Requirements
Definition & Testing Processes                     Final Report         ACN 11-70010




 EDS                   Electronic Data Systems

 IQCU                  Independent Quality Control Unit

 LCS                   Loan Consolidation System

 LCSAT                 Loan Consolidation Systems Acceptance Testing

 LCSIT                 Loan Consolidation Systems Integration Testing

 LOS                   Loan Origination System

 LOSAT                 Loan Origination Systems Acceptance Testing

 LOSIT                 Loan Origination Systems Integration Testing

 PSS                   Program Systems Service

 RFP                   Request For Proposal

 RTM                   Requirements Traceability Matrix

 SAT                   Systems Acceptance Test

 SIT                   Systems Integration Test

 SOW                   Statement of Work




                                                       24
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              25
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              26
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              27
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              28
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              29
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              30
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              31
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              32
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              33
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              34
Review of the Department=s Requirements
Definition & Testing Processes            Final Report   ACN 11-70010




                                              35
Review of the Department=s Requirements
Definition & Testing Processes                 Final Report                         ACN 11-70010




                                                                             Appendix 3


OIG Response To Department Cover Letter Comments

The following addresses comments provided by the Department in the cover letter that accompanied
their response to the report findings and recommendations. These comments were unable to be
incorporated into and addressed elsewhere in our report.

Ø The Department expressed concern over the belief that some of the conclusions included in our
  report were reached based on anecdotal material and should not be included in the final
  report- specifically, much of the underlying information and analysis work supporting the
  conclusions that system requirements were inadequately defined and there was not sufficient
  user involvement. The Department believes that interviews upon which the conclusions were
  based took place some three or four years after the events occurred and that not all pertinent
  Department staff were included in the audit interview process. In addition, the Department
  does not believe we followed audit standards that cite, where audit evidence obtained in the
  form of oral representations is critical to an audit conclusion, the auditor should obtain
  documentary confirmation, either on paper or through other media.

      The standards quoted in the Department’s response indicate that “the IS auditor should
      consider obtaining documentary confirmation of the representations” made orally. It is,
      however, up to the auditor to determine whether the evidence provided satisfies the criteria of
      “relevance, reliability, sufficiency and usefulness.” Documentary support is considered more
      reliable than oral evidence alone, but in the absence of documentation, supportable conclusions
      may be based on the oral evidence provided. If the auditor received the same or similar
      representations of events from multiple interviewees, these may be considered reliable to
      support an audit conclusion, in the absence of documentary evidence. We strongly believe that
      the conclusions presented are well supported through both oral and documentary evidence that
      is relevant, reliable and sufficient, as noted below.

      With regard to system requirements definition, evidence supporting our conclusions consisted of
      information provided through interviews with the COTR for the LOS contract, two of the
      applicable division directors within PSS, as well as documents prepared by the contracting
      office. Evidence was also provided through our review of the SOW and EDS’s proposal, as
      well as the Department’s own evaluation report prepared under contract entitled “Direct Loan
      Evaluation Assessment of Department of Education Administration: Academic Year 1995-96 &
      1996-97”, issued in final in 1998 through the Office of the Undersecretary.

      With regard to lack of user involvement, evidence was obtained through interviews with
      Program (User) office heads, the LOS COTR, a PSS division director and, again, reported in
      the Department’s own evaluation report prepared under contract entitled “Direct Loan
      Evaluation Assessment of Department of Education Administration: Academic Year 1995-96 &
      1996-97”, issued in final in 1998 through the Office of the Undersecretary.

                                                   36
Review of the Department=s Requirements
Definition & Testing Processes                  Final Report                          ACN 11-70010


      In addition, there is no need for “all pertinent staff” to have been interviewed, any more than for
      documentary evidence to be considered a precondition for drawing a conclusion. If it were that
      simple, auditees could avoid audit findings by simply not keeping records, and ensuring that
      staff were not available for interviewing. We performed a total of 18 interviews with key ED
      employees. Interviewees were identified though a review of contract and testing
      documentation, as well as referrals made during interviews. All applicable PSS Division
      Directors were interviewed, applicable Program Office heads, the LOS Contracting Officer’s
      Technical Representative, Department on-site monitors, testing participants/leads, as well as one
      of the key writers of the SOW and chairperson of the evaluation panel. To ensure that all
      pertinent staff were interviewed, we even interviewed a key individual that was no longer
      employed by the Department but had a key role in the system development and proposal
      evaluation. We requested a listing of pertinent staff that the Department felt we had “missed”.
      As of the issuance of this report, we had only been provided with the name of one individual
      who would not have materially impacted the results of this audit.




                                                    37
